CERTIFICATE OF COMPLIANCE
No.

In The Supreme Court of the United States

Endre’ Glenn (Pro SE)
Petitioner
(Petitioner)
v.

Brennan H. Moss,
PIA ANDERSON DORIUS REYNARD & MOSS LLC.
(Respondents)

As required by Supreme Court Rule 33.1(h), I certify that the petition for a Writ of
Certiorari contains 4,359 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct. Executed
on Friday, June 10, 2019^

